Audit Follow-up Review of Recommendation Nos. 1 and 2
from the Audit of USAID/Mozambique’s Performance
Monitoring of Road Repair and Reconstruction Activities
Funded by the Southern Africa Floods Supplemental
Appropriations, Report No. 4-656-03-001-P
Audit Report No. 4-656-04-007-P
April 23, 2004




            PRETORIA, SOUTH AFRICA
April 23, 2004


MEMORANDUM
FOR:             USAID/Mozambique Mission Director, Jay L. Knott

FROM:            Regional Inspector General/Pretoria, Jay Rollins /s/

SUBJECT:         Audit Follow-up Review of Recommendation Nos. 1 and 2 from
                 the Audit of USAID/Mozambique’s Performance Monitoring of
                 Road Repair and Reconstruction Activities Funded by the Southern
                 Africa Floods Supplemental Appropriations, Report No. 4-656-03-
                 001-P (Report No. 4-656-04-007-P)

This memorandum is our report on the subject audit. In finalizing this report, we
considered management comments on the draft report and have included those
comments, in their entirety, as Appendix II in this report.

This report does not include any recommendations. In response to the draft
report, USAID/Mozambique fully concurred with the findings of this audit.

I appreciate the cooperation and courtesy extended to my staff throughout the
audit.
(This page intentionally left blank.)




                                        2
Table of   Summary of Results .............................................................................................5
Contents
           Background ..........................................................................................................5

           Audit Objective ....................................................................................................6

           Audit Finding .......................................................................................................6

                     Did USAID/Mozambique take corrective action to justify final
                     action for Recommendation Nos. 1 and 2 of Audit Report No. 4-
                     656-03-001-P? ..........................................................................................6

           Management Comments and Our Evaluation ......................................................9

           Appendix I: Scope and Methodology.................................................................11

           Appendix II: Management Comments ...............................................................13




                                                                                                                                    3
(This page intentionally left blank.)




                                        4
             The Regional Inspector General/Pretoria, conducted this audit to determine
Summary of
             whether USAID/Mozambique took corrective action to justify final action for
Results      Recommendation Nos. 1 and 2 of the Office of Inspector General’s Audit Report
             No. 4-656-03-001-P. (See page 6.)

             The audit found that USAID/Mozambique has taken corrective action on both
             recommendations to justify final action. In part, the Mission responded to the
             recommendation by compelling the construction contractor’s employer and the
             engineering consulting firm to pressure the construction contractor to complete
             the EN211 road segment in a timely manner. The Mission also obtained (1)
             written weekly construction progress reports and (2) a revised completion and
             flood damage repair program that provided a time line for the project through its
             completion date of August 9, 2003. (See page 7.) Further, the Mission evaluated
             the performance of the two engineering consulting firms, evaluations that resulted in
             Contractor Performance Reports. (See pages 7-8.)

             In response to the draft report, USAID/Mozambique fully concurred with the
             findings of this audit. Therefore, we consider that no additional action is required.
             (See page 9.)


Background   During the year 2000, southern Africa experienced the worst flooding in a century.
             Hardest hit was the country of Mozambique. To help alleviate problems caused by
             this flooding, the U.S. Congress passed emergency supplemental appropriations
             totaling $160 million. These supplemental appropriations were to provide
             immediate rescue, relief, resettlement and reconstruction activities in the affected
             countries. USAID/Mozambique programmed $35 million of the supplemental
             appropriations to repair and reconstruct damaged road segments totaling 206
             kilometers and one major bridge.

             On January 31, 2003, the Office of Inspector General (OIG) issued Audit Report No.
             4-656-03-001-P.      This report stated that USAID/Mozambique generally
             implemented and monitored its road and bridge repair and reconstruction activities
             under the supplemental appropriations in accordance with USAID policies and
             procedures.       The report also addressed OIG concerns regarding
             USAID/Mozambique’s actions in response to problems identified with the
             contractor’s performance on the EN211 road segment, which had an original
             completion date of August 19, 2002, but was substantially delayed. There were also
             concerns regarding the substandard quality of work for this road segment. Finally,
             the report stated that USAID/Mozambique did not conduct required annual
             performance evaluations for two engineering consulting firms with which it had
             direct contracts. Thus, vital information on the contractors’ performance had not
             been officially documented.          Therefore, the OIG recommended that
             USAID/Mozambique:



                                                                                                5
                •   Develop a plan of action to overcome known shortfalls in the reconstruction
                    of the EN211 road segment and include in that plan a definitive timeframe
                    for the timely completion of the road segment.

                •   Conduct a current performance evaluation of the two engineering consulting
                    firms contracted to provide design and supervision services for the repair
                    and reconstruction of road segments and bridges funded under the Southern
                    Africa Floods Supplemental Appropriations, and prepare a Contractor
                    Performance Report documenting the results of the evaluations.

            Work on the EN211 road segment included the repair and reconstruction of 47
            kilometers of road between the EN1 road segment and the town of Nova Mambone
            on the eastern coast of Mozambique. USAID/Mozambique agreed to provide 94
            percent of the total reconstruction contract funding. Based on that percentage,
            USAID/Mozambique’s share of the EN211 road segment was $7.9 million.1 The
            EN211 road segment was completed on August 9, 2003. On August 20, 2003,
            USAID/Mozambique submitted a memorandum to USAID’s Office of Management
            Planning and Innovation (MPI) that requested MPI close the recommendations made
            in Audit Report No. 4-656-03-001-P. The memorandum documented actions taken
            by the Mission and provided information on implementation of the audit
            recommendations. Based on the Mission’s submission, on September 3, 2003, MPI
            determined that final action was complete for both recommendations and that no
            further action was required. The audit in this report, designed to follow-up on the
            recommendations from the prior audit described above, covers the period from
            January 2003 through February 2004.


Audit       This recommendation follow-up audit was conducted in accordance with the U.S.
Objective   Office of Management and Budget’s Circular No. A-50 and Office of Inspector
            General (OIG) audit policy, which requires the OIG to follow up on
            recommendations that have been closed. Specifically, the audit was conducted to
            answer the following question:

            •   Did USAID/Mozambique take corrective action to justify final action for
                Recommendation Nos. 1 and 2 of Audit Report No. 4-656-03-001-P?

            Appendix I contains a discussion of the audit's scope and methodology.


Audit       Did USAID/Mozambique take corrective action to justify final action for
Finding     Recommendation Nos. 1 and 2 of Audit Report No. 4-656-03-001-P?


            1
            USAID/Mozambique’s original cost estimate for its share was $6.8 million. According to a
            USAID/Mozambique official, most of the increased costs were due to additional work and
            materials needed for the roadway when it was damaged during a March 2003 cyclone.


                                                                                                  6
USAID/Mozambique has taken corrective action on Recommendation Nos. 1 and
2 to justify final action.

In response to Recommendation No. 1, the Mission has taken corrective action to
justify final action on this recommendation. According to Mission officials, this
repair and reconstruction effort was performed under a host country contract. As
such, the Mission officials believed that they could not unilaterally develop a plan
of action and a definitive timeframe for the timely completion of the road segment
since this was the responsibility of the construction contractor. Instead, the
Mission responded to the recommendation by compelling the construction
contractor’s employer (who was the responsible host country agency) and the
engineering consulting firm to pressure the construction contractor to complete
the EN211 road segment in a timely manner. In addition, the Mission continued
to hold monthly meetings with the major stakeholders to address the status of the
reconstruction. In March 2003, Cyclone Japhet damaged both completed and
uncompleted portions of the EN211 road segment. According to a Mission
official, this damage resulted in delaying the completion of the road until August
2003. (Audit Report No. 4-656-03-001-P reported that the original estimated
completion date for this road segment was August 19, 2002, and was later revised
by the Mission until March or April 2003.) The Mission had obtained a written
Revised Completion and Flood Damage Repair Program that provided a time line
for completing the EN211 road segment. Finally, the Mission obtained weekly
progress reports from the engineering contractor that measured the reconstruction
progress against the revised schedule. On August 9, 2003, the EN211 road
segment was completed. These actions taken by the Mission justified final action
for Recommendation No. 1.




Above are photos of the EN211 road segment taken at a water fountain in Nova Mambone,
Mozambique. The pre-reconstruction photo on the left was taken in November 2001 and the post-
reconstruction photo on the right was taken in February 2004. (Photos provided by
USAID/Mozambique.) The 2001 photo shows weeds around the water fountain with the muddy dirt EN211road
segment behind it. The 2003 photo shows the fountain surrounded by asphalt and the paved EN 211 behind it.
In response to Recommendation No. 2, the Mission has taken corrective action to
justify final action on this recommendation. This required that the Mission
conduct a current performance evaluation of the two engineering consulting firms



                                                                                                             7
contracted by the Mission to provide design and supervision services for the repair
and reconstruction of road segments and bridges funded under the Southern Africa
Floods Supplemental Appropriations and that it prepare a Contractor Performance
Report (CPR) documenting the results of the evaluations.

The Mission evaluated the performance of the two engineering consulting firm’s
evaluations which formed the basis for written CPRs. An interim CPR was
prepared by the Mission for one engineering consulting firm for the period
October 12, 2000, to June 30, 2003. As required, this CPR was entered into the
National Institutes of Health’s (NIH) database. NIH maintains the Contractor
Performance System for several departments and agencies of the U.S.
Government. According to a Mission official, USAID/Mozambique did not know
if this contractor entered any responses into the NIH database because, after
losing their Contracting Officer in July 2003, the Mission staff has not been able
to gain access to the NIH database. This is because only the Mission’s
Contracting Officer had access to the database. Mission officials said that they
would issue a final CPR once the defect liability period ends for the EN211 road
segment in August 2004.

The Mission completed a final CPR for the second engineering consulting firm
for the period October 12, 2000, to April 30, 2003. However, the Mission
encountered difficulties trying to enter the Dunn and Bradstreet (D&B) number
for the engineering consulting firm. According to a Mission official, for some
unknown reason the D&B number was not being accepted by the NIH database.
Although the CPR is in the NIH database, without the D&B number, the database
record for that firm is incomplete. The Mission has tried to resolve this problem
with NIH, but without success.

USAID/Mozambique has taken sufficient action to support the closure of
Recommendation Nos. 1 and 2. Nevertheless, there are some additional activities
that the Mission should consider, activities that will further enhance the actions
already taken in response to Recommendation No. 2. Therefore, we are making
the following suggestions:

•   We suggest that USAID/Mozambique determine if the first engineering
    consulting firm has responded to the Mission’s interim Contractor
    Performance Report. This information might be helpful for the Mission when
    it prepares the final Contractor Performance Report for the firm.

•   We suggest that USAID/Mozambique continue its efforts to resolve the D&B
    number problem for the second engineering consulting firm in its final
    Contractor Performance Report.




                                                                                 8
Management   In response to our draft report, USAID/Mozambique management fully concurred
Comments     with the findings of this audit and expressed appreciation for RIG/Pretoria’s
             continued cooperation and support. Therefore, no additional action is required.
and Our
Evaluation




                                                                                           9
(This page intentionally left blank.)




                                        10
                                                                                      Appendix I

Scope and     Scope
Methodology
              The Regional Inspector General/Pretoria conducted this audit in accordance with
              generally accepted government auditing standards. The audit covered the period
              from January 2003 through February 2004 and reviewed the corrective final actions
              taken by the Mission on Recommendation Nos. 1 and 2 from our January 2003 audit
              report on USAID/Mozambique’s performance monitoring of road repair and
              reconstruction activities funded by the Southern Africa Floods Supplemental
              Appropriations. In planning and performing this audit, we tested and assessed
              significant management controls, specifically, the Mission’s monitoring activities of
              the completion of the EN211 road segment and its efforts to respond to audit
              recommendations. The types of evidence examined during the audit included—but
              were not limited to—the Mission’s monitoring of the road repair and reconstruction
              activities, including internal documents and external correspondence with major
              stakeholders. Additional evidence included Mission documents provided to
              USAID’s Office of Management Planning and Innovation (MPI), including the
              Mission’s request and the supporting documentation that was the basis for MPI’s
              determination that final action was complete.

              The audit was conducted at USAID/Mozambique in Maputo, Mozambique, from
              February 9 to 13, 2004. The audit included a field visit to the completed EN211 road
              segment.

              Methodology

              The purpose of this audit was to review the Mission’s corrective final actions on
              Recommendation Nos. 1 and 2. Specifically, the audit was designed to answer
              the question, “Did USAID/Mozambique take corrective action to justify final
              action for Recommendation Nos. 1 and 2 of Audit Report No. 4-656-03-001-P?”
              To answer the audit’s objective, we reviewed Mission documents and interviewed
              Mission officials. Some of these Mission documents were (1) billed and
              estimated final quantities and costs of the EN211 road segment, (2) construction
              time-line chart, (3) weekly construction progress reports, and (4) contractor
              performance reports.          Further, we reviewed correspondence between
              USAID/Mozambique and MPI. This correspondence included the Mission’s request
              and supporting documentation asking that MPI close the recommendations made in
              Audit Report No. 4-656-03-001-P. We also reviewed MPI’s correspondence, which
              stated that final action was complete for both recommendations.

              We also relied upon Audit Report No. 4-656-03-001-P (issued by RIG/Pretoria on
              January 31, 2003), on which this review was based, in order to (1) identify and
              review the criteria that had been used and (2) gain an understanding of the
              reported findings. We reviewed both Recommendation Nos. 1 and 2 and the
              associated critical findings identified in the prior audit report. For each finding,



                                                                                                11
we determined if the problem areas had been addressed. These determinations
were based on professional judgment and served as the basis for deciding whether
to concur that reported corrective actions effectively addressed Recommendation
Nos. 1 and 2. Finally, we made a field visit to the EN211 road segment and
drove along the entire segment to view the completed reconstruction.

The nature of this audit did not lend itself to materiality thresholds; thus none
were developed.




                                                                              12
                                                                                                      Appendix II


Management
                                               UNITED STATES
Comments
                                      AGENCY FOR INTERNATIONAL DEVELOPMENT
                                                    USAID MISSION TO MOZAMBIQUE




             JAT Complex                            U.S.A Postal Address:             Department Fax Numbers
             Rua 1231, nº41                         2330 Maputo Place                 Director:                258 1 352-099
             Bairro Central “C”                     U.S. Department of State          Executive Officer:       258 1 352-130
             Maputo, Mozambique                     Washington, D.C. 20521-2330       Controller:              258 1 352-140
                                                                                      SO1/SPU:                 258 1 352-085
             Phone: 258 1 352-000                                                     SO2/SO3:                 258 1 352-086
             Fax: 258 1 352-100                                                       SPO/PDO:                 258 1 352-148
                                                                                      PMU:                     258 1 352-149




                                                       MEMORANDUM

                        To:              Jay Rollins
                                         Regional Inspector General/Pretoria

                        From:            Jay L. Knott /s/
                                         Mission Director, USAID/Mozambique

                        Date:            April 19, 2004

                        Reference:       Your e-mail dated 03/23/04 on Draft Report on Audit Follow-up
                                         Review of Recommendation Nos. 1 and 2 from
                                         USAID/Mozambique Road Audit

                        Subject:         Audit Follow-up Review of Recommendations Nos. 1 and 2 from
                                         the Audit of USAID/Mozambique’s Performance Monitoring of
                                         Road Repair and Reconstruction Activities Funded by the
                                         Southern Africa Floods Supplemental Appropriations, Report No.
                                         4-656-03-001-P (Report No. 4-656-04-XX-P)


                        We refer to RIG/Pretoria’s recent Audit Follow-up on the above audit and to the draft
                        report received by the Mission on March 23, 2004. USAID/Mozambique fully
                        concurs with the findings of this audit and appreciates RIG/Pretoria continued
                        cooperation and support.




                                                                                                                       13
